                                                          United States Department of State
                                                          and the Broadcasting Board of Governors

                                                          Office of Insp ector General


SENSITIVE BUT UNC LASSIFIED                                      JAN     7 1013
MEMORANDUM

TO:            M - Patrick F. Kennedy

FROM :         OIG - Harold W. Geisel, Deputy Inspector    Gener~
SUBJECT:       Review of Overseas Security Policy Board Exceptions and Secure Embassy
               Construction and Counterterrori sm Act of 1999 Waivers, ISP ~I-13-06

Summary

        The Office of Inspector General (010) conducted a review of Overseas Security Policy
Board (OSP8) exceptions and Secure Embassy Construction and Counterterrorism Act of 1999
(SECCA) waivers granted by the Bureau of Diplomatic Security CDS) to overseas posts. The DS
Countermeasures Directorate, Office of Physical Security Programs CDS/CIPSP) does not
adequately track exceptions to asps physical security standards and SECCA waivers of
colocation and setback. OIG recommends that DS impl ement procedures to track and report the
status of and compl iance with exceptions and waivers.

Scope and Methodology

        01 0 conducted reviews of physical security files and conditions at 27 overseas posts as
well as files maintained by DS/CIPSP. 010 inspectors com pared records maintained by DS with
records maintained by overseas posts to determine whether posts had compl ied with stipulations
under which exceptions and waivers had been granted. 010 also noted conditions that required
an excepti on or waiver for which none had been filed.

         As stated in 12 Foreign Affairs Handbook (F AH)-6 H-5 I I. 7 h. (I), DS is responsible for
monitoring compliance with Department of State security standards. DS maintains a database of
each post's compli ance with physical security standards and the status of requests for exceptions
and waivers. As specified in SECCA and 12 Foreign Affairs Man ual (F AM) 315.1 , only the
Secretary, together with the head of each agency employin g personnel that would not be located
at the site, can waive the requirements for colocation and setback with respect to chanceries and
consulates. For buildings other than chanceries or consulates within the meaning of the statute,
the Secretary has delegated authority for colocation and setback to the Assistant Secretary for
DS, who is also authori zed to grant exceptions to all aSPs security standards.

        Exceptions to a security standard may be requested by the post, an agency at post, or the
Department of State. Procedures for requesting and processing waivers and exceptions are
described in 12 F AH-5 B-2 I 0, Exception Request Procedures, and in 12 FAM 315, Waivers and
Exceptions. As a condition of granting an exception or waiver, the Department of State may
stipulate steps to mitigate vulnerabilities.
                              SENS ITIVE BUT UNCLASS IF IED
                                    SENSITIVE BUT UNCLASSIFIED


Background and Findings

        Although posts are not required to maintain exception and waiver records. keeping an
active file is imponant. When a new regional security officer arrives at post, accurate records
can help ensure that outstanding exception and waiver requests are followed up, that mitigating
steps arc understood and completed, and that restrictions, such as building use, are enforced.

         Despite DIG's initial concerns, only a small number cfposts had not complied with
stipulations in approval documents; most were minor. OIG inspectors found that about one-third
of waivers and exceptions records at overseas posts did not match those in DS/C/PSP tiles. In 15
cases, regional securi ty officers were unable to locate an exception or waiver approval or denial
that was on file with OS/CIPSP. In addition, several posts had active exceptions on fil e that
could not be found in OS/C/PSP files.

        Inspectors also found condit ions of noncompliance with security standards for which
posts had not sought exceptions or waivers_ Posts had either failed to submit requests for
exceptions or waivers I or the requests did not accurately describe conditions of noncompliance.
The most common example was the use of warehouse space for offices. (Office space must meet
greater physical security standards than warehouse space.)

        OS does not regularly review waiver approvals to determine whether they are still active.
As of August 2011, OS/C/PSP had more than 1,000 exceptions and waivers on file dating back
to 1987. Inspectors found waivers for facilities that are no longer leased by the U.S. Govern ment
or no longer exist. OS does not have fonnal monitoring procedures to detennine whether posts
are requesting exceptions and waivers for all conditions that do not meet security standards and
complying with stipulations in exception and waiver approvals.

Recommendation 1: The Bureau ofOip lomatic Security should requ ire overseas posts to
submit an annual written certification that exceptions and waivers have been requested for all
circumstances where an Overseas Security Policy Board security standard Calmot be met and
provide a statement of assurance signed by the chief of mission confimling that the post is
adhering to stipulations in existing waivers and exceptions. (Action: OS)

Recommendation 2: The Bureau of Diplomatic Security should update annually its exception
and waiver files and identify files that are inactive or obsolete. (Action: OS)

        You should advise us on actions taken or planned on the recommendations wi thin 30
days of the date of this memorandum. Actions taken or planned arc subject to OIG followup and
reporting. (b)(2)(b)(6)



Enclosures:
       Compliance Sheet
       GIG Resolution Procedures

I   As outlined in 12 FAH-5 H-200 & 300.
                                                 2
                                    SENS ITIVE BUT UNCLA SSIFIED
